No. 19-808
In the

Supreme Court of the United States

LEIBUNDGUTH STORAGE & VAN SERVICE, INC.,
Petitioner,
v.
VILLAGE OF DOWNERS GROVE,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

BRIEF IN OPPOSITION
Scott M. Day
Counsel of Record
Rachel K. Robert
Robert G. Black
Day Robert & Morrison, P.C.
300 East Fifth Avenue, Suite 365
Naperville, Illinois 60563
(630) 637-9811
smd@drm.law
Counsel for Respondent
294126

A
(800) 274-3321 • (800) 359-6859

i
COUNTERSTATEMENT OF
QUESTION PRESENTED
Does Reed v. Town of Gilbert supersede or overturn
application of intermediate scrutiny to time, place, and
manner sign regulations that restrict petitioner-plaintiff’s
purely commercial speech? Does Reed v. Town of Gilbert
render a municipal sign ordinance that provides greater
constitutional protection to non-commercial speech
than commercial speech to be content-based and thus
subject to strict scrutiny? Does a substitution clause in
a sign ordinance establish content-neutrality of the sign
regulations?

ii
RULE 29.6 STATEMENT
Respondent, Village of Downers Grove, is an Illinois
municipal corporation. It is not publicly or privately held,
it issues no stock, and it has no parent or subsidiary
corporations.

iii
TABLE OF CONTENTS
Page
COUNTERSTATEMENT OF
QUESTION PRESENTED  . . . . . . . . . . . . . . . . . . . . . i
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . vi
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
A. Uniform Ban On Painted Wall Signs In The
Village  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
B. Wall Signs Allowed Along The BNSF
Railroad Right-Of-Way . . . . . . . . . . . . . . . . . . . . . 4
C. Substitution Clause Added To The Sign
Ordinance  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
D. District Court Proceedings  . . . . . . . . . . . . . . . . . 7
E. The Seventh Circuit Decision . . . . . . . . . . . . . . . . 9
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

Leibundguth’s perception of lower court
confusion over the level of scrutiny to be applied
to commercial speech is not supported . . . . . . . 10

iv
Table of Contents
Page
II. Commercial and non-commercial speech
have historically been treated differently . . . . . 12
III. Reed itself belies Leibundguth’s effort to
obtain strict scrutiny . . . . . . . . . . . . . . . . . . . . . . 13
IV. The Village promptly responded to Reed’s
non- commercial speech holding and
adopted a substitution clause  . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

v
TABLE OF APPENDICES
Page
Appendix A — Article 9, Village of
Downers Grove Sign Ordinance . . . . . . . 1a
Appendix b — Ordinance No . 5472,
An Ordinance Amending Certain
Provisions of the Downers Grove
Zoning Ordinance R egarding
Signs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41a
Appendix c — Ordinance No . 5478, An
Ordinance A mending A dopting
a Text A mendment to A rticle
9 of D owners G rove Z oning
Ordinance  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  47a

vi
TABLE OF CITED AUTHORITIES
Page
Cases
Am. Legion Post 7 of Durham, N.C. v.
City of Durham,
239 F.3d 601 (4th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 12
Central Hudson Gas & Elec. Corp. v.
Pub. Serv. Comm’n of N.Y.,
447 U.S. 557 (1980)  . . . . . . . . . . . . . . . . . . . . 8, 9, 10, 12
Clark v. Comty. for Creative Non-Violence,
468 U.S. 288 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 9
Covenant Media of SC, LLC v.
City of N. Charleston
493 F.3d 421 (4th Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 5
Expressions Hair Design v. Schneiderman,
137 S. Ct. 1144 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 12
Friedman v. Rogers,
440 U.S. 1 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ga. Outdoor Adver., Inc. v. City of Waynesville,
833 F.2d 43 (4th Cir. 1987) . . . . . . . . . . . . . . . . . . . . . 15
Hill v. Colorado,
120 S. Ct. 2480 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Lavey v. City of Two Rivers,
171 F.3d 1110 (7th Cir. 1999)  . . . . . . . . . . . . . . . . . . . . 4

vii
Cited Authorities
Page
Linmark Ass’n, Inc. v. Willingboro Tp.,
431 U.S. 85 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Major Media of the Se., Inc. v. City of Raleigh,
792 F.2d 1269 (4th Cir. 1986) . . . . . . . . . . . . . . . . . . . 15
Metromedia, Inc. v. City of San Diego,
453 U.S. 490 (1981)  . . . . . . . . . . . . . . . . . . . . . 12, 13, 15
Naegele Outdoor Adver., Inc. v. City of Durham,
844 F.2d 172 (4th Cir. 1988) . . . . . . . . . . . . . . . . . . . . 15
Nat’l Adver. Co. v. City and County of Denver,
912 F.2d 405 (10th Cir. 1990) . . . . . . . . . . . . . . . . . . . 16
Nat’l Adver. Co. v. City of Miami,
402 F.3d 1329 (11th Cir. 2005) . . . . . . . . . . . . . . . . . .16
Nat’l Adver. Co. v. City of Orange,
861 F.2d 246 (9th Cir. 1988) . . . . . . . . . . . . . . . . .  11, 16
Nat’l Adver. Co. v. Town of Babylon,
900 F.2d 551 (2d Cir. 1990) . . . . . . . . . . . . . . . . . . . . . 16
Norton v. City of Springfield, Ill.,
768 F.3d 713 (7th Cir. 2014)  . . . . . . . . . . . . . . . . . . . . . 4
Ohralik v. Ohio State Bar Ass’n,
436 U.S. 447 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

viii
Cited Authorities
Page
Outdoor Media Group, Inc. v. City of Beaumont,
506 F.3d 895 (9th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 16
Outdoor Sys., Inc. v. City of Mesa,
997 F.2d 604 (9th Cir. 1993) . . . . . . . . . . . . . . . . . . . . 16
Reed v. Town of Gilbert, Ariz.,
135 S. Ct. 2218 (2015) . .  4, 5, 6, 8, 10, 11, 13, 14, 15, 16
Southlake Prop. Assoc., Ltd. v.
City of Morrow, Ga.,
112 F3d 1114 (11th Cir. 1997) . . . . . . . . . . . . . . . . . . . 16
Thomas v. Bright,
937 F.3d 721 (6th Cir. 2019) . . . . . . . . . . . . . .  10, 11, 14
Valley Outdoor, Inc. v. Cnty. of Riverside,
337 F.3d 1111 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . 16
Vono v. Lewis,
594 F. Supp. 2d 189 (D.R.I. 2009)  . . . . . . . . . . . . . . . 16
Young v. Am. Mini Theatres, Inc.,
427 U.S. 50 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Local Ordinances
28 Downers Grove Mun. Code § 9.010 . . . . . . . . . . . . . . . 6
28 Downers Grove Mun. Code § 9.020 . . . . . . . . . . . 2, 3, 7
28 Downers Grove Mun. Code § 9.050 . . . . . . . 2, 3, 4, 8, 9

1
STATEMENT OF THE CASE
In 2005, respondent-defendant Village of Downers
Grove (Village) adopted an amended sign ordinance
(sign ordinance). The sign ordinance’s stated purpose
is “to create a comprehensive but balanced system of
sign regulations to promote effective communication
and to prevent placement of signs that are potentially
harmful to motorized and non-motorized traffic safety,
property values, business opportunities and community
appearance.”1 (Resp. App. 1a). Specific purposes for
enacting the ordinance include: (i) to enhance the
physical appearance of the Village; (ii) to enhance the
Village’s economy, business and industry by promoting
the reasonable, orderly and effective display of signs, and
encouraging better communication between an activity
and the public it seeks with its message; (iii) to preserve
the value of private property by assuring the compatibility
of signs with surrounding land uses; and (iv) to protect
motorized and non-motorized travelers by reducing
distraction that may increase the number and severity of
traffic accidents. (Resp. App. 1a-2a).
A nine-year amortization schedule allowed owners of
then-existing non-conforming signs until 2014 to eliminate
non-conformities, and to bring their signs into compliance
with the sign ordinance. (Pet. App. 16a).

1. It should be noted that petitioner attached the wrong
Village sign ordinance to the petition for a writ of certiorari. The
correct version of the sign ordinance including all up-to-date
amendments on which the district court’s judgment was rendered
is attached as Resp. App. 1a-40a.

2
Petitioner-plaintiff Leibundguth Storage & Van
Service, Inc. (Leibundguth), had multiple wall signs on
both the front and back of its building located at 1301
Warren Avenue, Downers Grove, Illinois, advertising
Leibundguth’s business. (Pet. App. 9a-13a). Upon adoption
of the 2005 sign ordinance, three specific regulations
rendered Leibundguth’s signs to be non-conforming. (Pet.
App. 14a).
First, Leibundguth had a 400-square-foot commercial
wall sign hand painted directly onto the brick exterior
back of its building, facing the adjoining Burlington
Northern Santa Fe (BNSF) railroad corridor. This sign
accordingly violated the following three provisions: (i) the
prohibition against painted wall signs (Section 9.020(P)
of the sign ordinance); (ii) the commercial wall sign
limit of 300-square-foot of commercial sign surface area
permitted (Section 9.050(A) of the sign ordinance); and (iii)
the existing (and later amended) regulation that allowed
commercial wall signs only to face a roadway or drivable
right-of-way (Section 9.050(C)(1) of the sign ordinance).
(Resp. App. 5a, 14a, 19a).
Second, Leibundguth had two additional commercial
wall signs located on the front of its building which violated
the prohibition of more than one wall sign facing a public
roadway or drivable right-of-way (Section 9.050(C)(1)).
One was also in violation for again being painted directly
onto the brick of the building (Section 9.020(P)). When
adding the two wall signs on the front of the building to
the 400-square-foot wall sign facing the BNSF railroad
corridor, the square footage of the gross signage
collectively exceeded the maximum 300-square-foot
commercial sign surface area permitted, still violating the
sign ordinance (Section 9.050(A)). (Resp. App. 19a, 5a, 14a).

3
From 2005-2014, Leibundguth did nothing to alter any
of the non-conforming wall signs. The Village voluntarily
withheld any enforcement proceedings during the nineyear amortization period. (Pet. App. 16a-17a). In 2014,
when the amortization period expired, Leibundguth’s wall
signs became illegal non-conforming signs. By October
2014, over 95-percent of the properties with signs within
the Village had come into compliance with the sign
ordinance. As of February 2015, compliance increased to
97-percent.
On December 8, 2014, Leibundguth filed its complaint,
subsequently amended on January 30, 2015. Count I
of the amended complaint asserted a facial challenge
to the sign ordinance as being content-based. Count II
specifically challenged the painted wall sign prohibition in
Section 9.020(P). Count III challenged the pre-amended
Section 9.050(C), that a commercial wall sign face either
a roadway or public right-of-way (not the railway as one
of Leibundguth’s signs did). Count IV challenged the
commercial wall sign size and number limitations in
Sections 9.050(A) and 9.050(C). (Pet. App. 17a-18a).
A. Uniform Ban On Painted Wall Signs In The Village.
Prior to the filing of Leibundguth’s amended complaint,
Section 9.020(P) of the sign ordinance prohibited any sign
painted directly on a wall, roof or fence, except in three
limited downtown business districts. After the filing of
the amended complaint, the Village Council on July 21,
2015 adopted Ordinance No. 5472 which amended Section
9.020(P) to uniformly ban painted signs throughout the
entire Village, without any exception for the downtown
business districts. (Resp. App. 41a-46a).

4
B. Wall Signs Allowed Along The BNSF Railroad
Right-Of-Way.
Prior to the case being filed, Section 9.050(C) of the
sign ordinance prohibited Leibundguth from displaying
a commercial wall sign on the rear building wall facing
the BNSF railroad right-of-way. After the case filing, and
also within Ordinance No. 5472, the Village undertook a
second amendment that added an entirely new provision
(Section 9.050(C)(5)), so that Leibundguth and all other
owners with lots in the Village with frontage along the
BNSF railroad right-of-way could display an additional
“bonus” commercial wall sign on the building wall facing
the railroad right-of-way, provided the sign not exceed
1.5-square-feet per lineal foot of tenant frontage along
the right-of-way, while the total 300-square-feet surface
area limitation remained in place. (Resp. App. 41a-46a).
C. Substitution Clause Added To The Sign Ordinance.
Leibundguth filed its case roughly six months prior to
the decision in Reed v. Town of Gilbert, Ariz., 135 S.Ct.
2218 (2015). Prior to Reed, the Village had what court
decisions came to refer to as a purposive sign ordinance,
embraced by the Seventh Circuit to define sign ordinance
content-neutrality in Norton v. City of Springfield, Ill., 768
F.3d 713 (7th Cir. 2014) and Lavey v. City of Two Rivers,
171 F.3d 1110 (7th Cir. 1999). Under the purposive legal
concept, the operative test to assess content-neutrality
was as follows:
…a regulation is not a content-based regulation
of speech if (1) the regulation “is not a ‘regulation
of speech,’” but rather a “regulation of the

5
places where some speech may occur;” (2)
the regulation ‘was not adopted ‘because of
disagreement with the message [the speech]
conveys;’” or (3) the government’s interests in
the regulation “are unrelated to the content of
the [affected] speech.”
Covenant Media of SC, LLC v. City of N. Charleston, 493
F.3d 421, 432 (4th Cir. 2007), citing Hill v. Colorado, 120
S.Ct. 2480, 2491 (2000).
Like the Town of Gilbert in Reed, the Village’s
sign ordinance segregated purely commercial sign
regulations from non-commercial sign regulations,
including political signs, event signs, holiday decorations
and other non-commercial signs. Purely commercial signs
(like Leibundguth’s wall signs) were subject to specific
commercial regulations limiting the location where they
could be displayed, the quantity of square footage, the total
number of signs and how they could be affixed or mounted
on the property. Non-commercial sign regulations were
in a separate section of the sign ordinance and were
subjected to different time, place, and manner regulations
driven by the purpose of the sign. (Resp. App. 6a-11a).
Then, with this case pending, came the June, 2015
decision in Reed. Despite the fractured opinion in Reed,
it was clear that a sign ordinance like the Village’s which
regulated non-commercial signs through a series of
different time, place, and manner restrictions based upon
the purpose of the non-commercial sign may not comply
with First Amendment protections. Accordingly, the
Village again amended its sign regulations. On September
8, 2015, less than three months after Reed was decided, the

6
Village adopted Ordinance No. 5478 to add what is known
as a substitution clause. (Resp. App. 47a-51a).
The legislative purpose for the Village’s substitution
clause was set forth in Ordinance No. 5478:
WHEREAS, the substitution clause adopted
by this Ordinance under Section 9.010.E
is expressly intended to allow the existing
categories of non-commercial sign regulations
to be maintained because they have been
historically legislated with an intention of
allowing the purpose and function of the noncommercial sign to impact the regulations.
In light of the Reed decision, however, the
substitution clause will also now permit the
owner of a lawful sign to substitute noncommercial sign copy in lieu of any other
commercial or non-commercial sign copy,
because the federal courts have broadly and
consistently held that such substitution clauses
render municipal sign regulations to be contentneutral… (Resp. App. 49a).
The Village’s substitution clause adopted shortly after
Reed states:
Sec. 9.010.E No Discrimination Against NonCommercial Signs or Speech.
The owner of any sign which is otherwise
allowed under this Article 9 may substitute
non-commercial copy in lieu of any other
commercial or non-commercial copy. This

7
substitution of copy may be made without
any additional approval or permitting. The
purpose of this provision is to prevent any
inadvertent favoring of commercial speech
over non-commercial speech, or favoring of any
particular non-commercial message over any
other non-commercial message. This provision
prevails over any more specific provision to
the contrary. This provision does not create a
right to increase the total amount of signage
on a parcel or allow the substitution of an offsite commercial message in place of an on-site
commercial message. (Resp. App. 3a).
D. District Court Proceedings.
After the case was filed, the Village agreed to waive
the up to $750 daily fine for non-conforming signs that
could have been assessed against Leibundguth during the
course of the district court proceedings. After discovery
closed, the parties filed cross motions for summary
judgment. (Pet. App. 58a).
On December 14, 2015, the district court granted
summary judgment in favor of the Village on all counts
in Leibundguth’s amended complaint. (Pet. App. 52a).
Leibundguth filed a motion to alter or amend the
judgment, which the court denied on June 29, 2016. (Pet.
App. 83a). The district court held the sign ordinance’s
universal ban on painted signs found in Section 9.020(P)
content-neutral, and constituted a valid time, place, and
manner restriction subject to intermediate scrutiny under
Clark v. Cmty. for Creative Non-Violence, 468 U.S. 288
(1984). (Pet. App. 20a, 52a, 72a-80a). The district court

8
also held that the sign ordinance’s restrictions on the
size and number of wall signs within Sections 9.050(A)
and 9.050(C) applied only to commercial signs, and were
subject to intermediate scrutiny under Central Hudson
Gas & Elec. Corp. v. Pub. Serv. Comm’n of N.Y., 447 U.S.
557 (1980). (Pet. App. 35a-36a, 52a, 83a).
In its memorandum opinion and order, the district
court specifically discussed the Reed decision. (Pet. App.
38-39a). While noting that its reach was not yet clear due
to the recency of the decision and the various concurring
opinions within it, the district court reiterated that the
restrictions in Reed applied only to non-commercial
speech. The district court therefore concluded that absent
an express overruling of Central Hudson, it must consider
Central Hudson and its progeny directly applicable and
binding on the commercial speech regulations challenged
by Leibundguth. (Pet. App. 39a).
Finally, the district court addressed Leibundguth’s
facial challenge to the size and number restrictions
within Sections 9.050(A) and 9.050(C)(1). Relying on the
overbreadth doctrine to satisfy standing, Leibundguth
had asserted that even if the specific sign restrictions at
issue could be constitutionally applied to it, the restrictions
could conceivably be applied unconstitutionally to others
and thus had to be found invalid in all applications. The
district court rejected Leibundguth’s overbreadth attack,
holding based upon clear precedent that because the size
and number restrictions in Sections 9.050(A) and 9.050(C)
applied only to commercial speech, a non-commercial
litigant could never be subject to the restrictions. (Pet.
App. 49a-51a).

9
E. The Seventh Circuit Decision.
The Seventh Circuit affirmed the district court,
albeit not under the precise same reasoning. (Pet. App.
1a-7a). The Seventh Circuit did not apply intermediate
scrutiny under Central Hudson. Instead, the Seventh
Circuit held that the challenged sign restrictions were
all standard time, place, and manner regulations subject
to intermediate scrutiny under Clark, 468 U.S. at 298.
(Pet. App. 5a). The Seventh Circuit further acknowledged
the existence of differences between the commercial and
non-commercial regulations in the Village sign ordinance.
Consistent with the district court, the Seventh Circuit
concluded that none of Leibundguth’s problems arose
from any content distinctions; rather, they were simply
the result of size and surface limitations. Thus, regardless
of any content discrimination, the Seventh Circuit also
found that Leibundguth lacked the ability to challenge
the constitutionality of sign regulations that did not apply
to its own signs.
The Village strongly contests Leibundguth’s assertion
that the Seventh Circuit rejected the district court’s
finding that Section 9.050 of the sign ordinance applied
only to commercial speech. (Pet. 8-9) No such language is
found anywhere in the Seventh Circuit’s opinion. In fact,
Leibundguth itself argued and agreed that Section 9.050
applied only to commercial speech, which the district court
discussed at length in its memorandum opinion and order
entered on Leibundguth’s motion to alter or amend the
judgment. (Pet. App. 63a-68a).
Because the challenged regulations survived
intermediate scrutiny under Clark and/or Central

10
Hudson, neither the district court nor Seventh Circuit
commented on the existence or impact of the substitution
clause in the Village’s sign ordinance.
ARGUMENT
I.

Leibundguth’s perception of lower court confusion
over the level of scrutiny to be applied to commercial
speech is not supported.

As the fundamental basis of its petition, Leibundguth
categorically asserts that regulations that restrict
commercial speech, while permitting non-commercial
speech, are now content-based under Reed’s framework.
The Village is not aware of any decision that even
questions whether Reed somehow converts a municipal
sign ordinance into a content-based ordinance requiring
strict scrutiny simply because the non-commercial sign
regulations are different than more restrictive commercial
regulations. Leibundguth has not cited such a case, and
the Village respectfully submits that both Leibundguth
and the Seventh Circuit in its opinion herein mistakenly
read Thomas v. Bright, 937 F.3d 721 (6th Cir. 2019) as
holding that Reed supersedes or overturns Central
Hudson. Thomas does no such thing, and in fact, does
not even reference Central Hudson.
Thomas involved a First Amendment challenge to a
Tennessee on-premise exception to a sign regulation that
prohibited copy on billboards unless the message posted
related to the use or purpose of the property on which the
sign was located. Because the plaintiff in Thomas posted
a sign on vacant property with a non-commercial message
that said “Go USA!” on a large American flag in support

11
of the USA Olympic Team in the 2012 Summer Games,
the State of Tennessee said the sign was not permitted
under the regulation. Thomas sued and the trial court held
the regulation to be a content-based restriction on noncommercial speech, subject to strict scrutiny. In affirming
the district court’s finding of a violation of Thomas’ First
Amendment rights, the court expressly limited its holding
to non-commercial speech, stating:
When a case implicates a core constitutional
right, such as a First Amendment right, we
must determine the level of scrutiny to apply
based on whether the restriction is contentbased or content-neutral. Reed, 135 S.Ct. at
2226-27. Because Thomas’s challenge to the Act
concerned only non-commercial speech (“Go
USA!”) and this appeal stems from the district
court’s as-applied holding, we necessarily
confine the analysis here to non-commercial
speech and need not consider the commercial
speech doctrine.
Thomas, 937 F.3d at 729.
Thomas does not create any confusion or break any
new ground. Thirty years prior to Reed, the same type
of on-premise billboard regulation was declared to be a
content-based non-commercial speech regulation in the
case of Nat’l Adver. Co. v. City of Orange, 861 F.2d 246,
248-249 (9th Cir. 1988). Thomas is simply another case
where the court declared a regulation unconstitutional
because it prohibited non-commercial speech on a
billboard while allowing less protected commercial speech
exclusively on the basis of message content.

12
II. Commercial and non-commercial speech have
historically been treated differently.
The constitutional protections of the First Amendment
have customarily been interpreted by this Court as
restricting the authority of municipal sign regulation based
on the content of the speech as being either commercial or
non-commercial. Indeed, in confronting a suggestion like
Leibundguth’s that a sign ordinance was content-based
because it had differing commercial and non-commercial
regulations, the Fourth Circuit recognized:
That some differential treatment is permitted
on the basis of speech’s commercial or noncommercial character would seem to be
a necessary implication of the Supreme
Court’s use of different constitutional tests
for regulations of commercial versus noncommercial speech.
Am. Legion Post 7 of Durham, N.C. v. City of Durham,
239 F.3d 601, 608 (4th Cir. 2001).
This different treatment between commercial and
non-commercial signs and speech, and the fact that noncommercial speech is afforded greater protection than
commercial speech, is predicated upon a long line of this
Court’s decisions finding this practice to be constitutionally
sound. Expressions Hair Design v. Schneiderman, 137
S.Ct. 1144, 1151 (2017); Metromedia, Inc. v. City of San
Diego, 453 U.S. 490, 506 (1981); Central Hudson, 447 U.S.
at 562-563; Friedman v. Rogers, 440 U.S. 1, 8-10 (1979);
Ohralik v. Ohio State Bar Ass’n, 436 U.S. 447, 455-56
(1978); Linmark Ass’n, Inc. v. Willingboro Tp., 431 U.S.

13
85, 91-92, 97 (1977); Young v. Am. Mini Theatres, Inc.,
427 U.S. 50, 68-69 n.32 (1976);
Leibundguth’s position turns this Court’s longstanding
and unwavering precedent upside down. Leibundguth’s
contorted view of Reed effectively overturns Metromedia
and its progeny by imposing strict scrutiny on a municipal
sign ordinance like the Village’s that does exactly what
it is supposed to do -- favor non-commercial speech by
imposing restrictions on commercial speech that do
not apply to non-commercial speech. In simplest terms,
Leibundguth argues that any distinction between
commercial speech regulation and non-commercial speech
regulation renders the entire sign ordinance facially
content-based, even if the distinction affords greater
protection to non-commercial speech. This position should
be rejected as having no basis in law.
III. Reed itself belies Leibundguth’s effort to obtain
strict scrutiny.
Ironically, Leibundguth advocates the exact absolutist
position the Town of Gilbert feared and foresaw, which
the majority in Reed made an express and clear effort to
refute and reject:
Our decision today will not prevent governments
from enacting effective sign laws. The Town
asserts that an “absolutist” content-neutrality
rule would render “virtually all distinctions in
sign laws…subject to strict scrutiny.” Brief for
Respondents 34-35, but that is not the case. Not
“all distinctions” are subject to strict scrutiny,
only content-based ones are. Laws that are

14
content-neutral are instead subject to lesser
scrutiny. See, Clark, 468 U.S. at 295, 104 S.Ct.
3065.
Reed, 135 S.Ct. at 2232.
The concurring opinions in Reed also go to great
length to guard against the position Leibundguth takes
here by both warning against an automatic trigger of strict
scrutiny regardless of the subcategories and exceptions
to the strict scrutiny rule, including the commercial
speech doctrine, and acknowledging the continued ability
of municipalities to impose time, place, and manner
restrictions such as those at issue in this case. Reed, at 135
S.Ct. at 2233-2236. (Justices Alito and Breyer, concurring
in the judgment). Notably, the continued ability to do so in
the face of Reed was expressly acknowledged in Thomas,
937 F.3d at 737-738.
In sum, Leibundguth’s interpretation of Reed
imposes a definition of content-neutrality that prevents
a municipality from regulating commercial and noncommercial speech differently, creating a conundrum
worthy of C.S. Lewis. Should Leibundguth’s version of
the Reed framework be adopted, the First Amendment
would obligate the Village to adopt sign regulations that
afford greater protection to non-commercial speech
over commercial speech. But in writing those differing
regulations for commercial and non-commercial signs,
the same First Amendment would render the sign
ordinance per se content-based and presumptively invalid.
This Catch-22 is untenable and cannot be the embraced
outgrowth of Reed.

15
IV. The Village promptly responded to Reed’s noncommercial speech holding and adopted a
substitution clause.
In response to Reed, within three months the Village
adopted an amendment adding a substitution clause to
its sign ordinance. (Resp. App. 3a). Purely commercial
signs continued to be subject to the same time, place,
and manner restrictions that previously limited the
size, number and location of commercial signs, including
Leibundguth’s signs. But in order to ensure contentneutrality for non-commercial speech, the substitution
clause permitted the owner of any sign allowed under
the sign ordinance to substitute any non-commercial
message for any other message of either permitted noncommercial or commercial copy. The introduction of
this substitution clause was not a novel innovation of the
Village, as substitution clauses had a lengthy record of
judicial acceptance.
The adoption of substitution clauses dates back to
the 1980s and typically provided that, notwithstanding
any other provision in an ordinance to the contrary, noncommercial copy could appear in lieu of commercial copy
on a sign so as to ensure that commercial advertising copy
was not preferred over non-commercial copy. This was a
key flaw that had been identified by the plurality opinion
in Metromedia, 453 U.S. at 512-517.
The earliest decisions addressing the substitution
clause emanated from the Fourth Circuit. See, Major
Media of the Se., Inc. v. City of Raleigh, 792 F.2d 1269,
1272 (4th Cir. 1986); Ga. Outdoor Adver., Inc. v. City of
Waynesville, 833 F.2d 43, 45-46 (4th Cir. 1987); Naegele

16
Outdoor Adver., Inc. v. City of Durham, 844 F.2d 172, 173
(4th Cir. 1988).
Other courts followed and adhered to the Fourth
Circuit’s decisions. See, Nat’l Adver. Co. v. City of Orange,
861 F.2d at 247-248; Nat’l Adver. Co. v. Town of Babylon,
900 F.2d 551, 556 (2d Cir. 1990); Nat’l Adver. Co. v. City
and County of Denver, 912 F.2d 405, 410 (10 th Cir. 1990);
Outdoor Sys., Inc. v. City of Mesa, 997 F.2d 604, 610-612
(9 th Cir. 1993); Southlake Prop. Assoc., Ltd. v. City of
Morrow, Ga., 112 F.3d 1114, 1117-1118 (11th Cir. 1997);
Valley Outdoor, Inc. v. Cnty. of Riverside, 337 F.3d 1111,
1112 (9th Cir. 2003); Nat’l Adver. Co. v. City of Miami,
402 F.3d 1329, 1334-1335 (11th Cir. 2005); Outdoor Media
Group, Inc. v. City of Beaumont, 506 F.3d 895, 902 (9 th
Cir. 2007).
In Vono v. Lewis, 594 F.Supp.2d 189, 204-205 (D.R.I.
2009), the federal district court criticized the state for
not adopting a substitution clause, noting that during the
course of the litigation the state had the opportunity, but
declined to do so. In stark contrast, the Village here took
that opportunity and promptly added a substitution clause
as a direct consequence of the Reed decision. Given the
existence of the substitution clause, any suggestion by
Leibundguth that the Village’s sign ordinance is contentbased and subject to strict scrutiny has no merit.
CONCLUSION
Nothing in Reed nor any other decision supports
Leibundguth’s petition. No case even suggests that
because the Village sign ordinance contains a set of sign
regulations for commercial speech which differ and are

17
more restrictive than those applicable to non-commercial
speech, the sign ordinance is per se content-based and
subject to strict scrutiny. Intermediate scrutiny was
properly applied to the challenged time, place, and
manner sign regulations restricting Leibundguth’s purely
commercial speech. As correctly recognized and rejected
by the district court and the Seventh Circuit, Leibundguth
cannot challenge sign regulations that do not apply to its
purely commercial speech in an effort to bootstrap strict
scrutiny review. In any event, adoption of the substitution
clause rendered the Village’s sign ordinance to be contentneutral.
Leibundguth has not established any compelling
reason for this Court to grant its petition for a writ of
certiorari. Therefore, the Village respectfully requests
the petition be denied.
Respectfully submitted,
Scott M. Day
Counsel of Record
Rachel K. Robert
Robert G. Black
Day Robert & Morrison, P.C.
300 East 5th Avenue, Suite 365
Naperville, Illinois 60563
(630) 637-9811
smd@drm.law
Counsel for Respondent

APPENDIX

1a
A 9, Village of
Appendix A —Appendix
Article
Downers Grove Sign Ordinance
ARTICLE 9 | SIGNS
[TABLES INTENTIONALLY OMITTED]
Sec. 9.010	General
A. 	Purpose
The sign regulations of this article are established to
create a comprehensive but balanced system of sign
regulations to promote effective communication and
to prevent placement of signs that are potentially
harmful to motorized and non-motorized traffic
safety, property values, business opportunities and
community appearance. This article is adopted for
the following specific purposes:
1.

to preserve, protect and promote public health,
safety and welfare;

2.

to preser ve the value of private property
by assuring the compatibility of signs with
surrounding land uses;

3.

to enhance the physical appearance of the village;

4.

to enhance the village’s economy, business and
industry by promoting the reasonable, orderly
and effective display of signs, and encouraging
better communication between an activity and
the public it seeks with its message;

2a
Appendix A
5.

to protect the general public from damage and
injury, that may be caused by the faulty and
uncontrolled construction and use of signs within
the village;

6.

to protect motorized and non-motorized travelers
by reducing distraction that may increase the
number and severity of traffic accidents; and

7.

to encourage sound practices and lessen the
objectionable effects of competition with respect
to size and placement of street signs.

B. Applicability
The regulations of this article apply to all signs in the
village, unless otherwise expressly stated.
C. 	Public Health and Safety
No sign may be designed, constructed or maintained
in a manner that presents a danger to the public
health, safety or welfare, as determined by the village.
D. 	Content and Location
Except as otherwise expressly provided in this article,
the following regulations apply to all signs:
1.

The content of signs is limited to the business,
service, and activity available or conducted on
the subject lot.

3a
Appendix A
2.

Unless otherwise specified in the Article, signs
are subject to setback regulations of the subject
zoning district.

3.

When a business or service does not have direct
access to a public street, signs directing traffic
to the subject business or service may be located
off premises at the nearest point of access. Such
signs are counted as part of the total allowable
sign area.

E. 	No Discrimination Against Non-Commercial Signs
Or Speech
The owner of any sign which is otherwise allowed
under this Article 9 may substitute non-commercial
copy in lieu of any other commercial or non-commercial
copy. This substitution of copy may be made without
any additional approval or permitting. The purpose of
this provision is to prevent any inadvertent favoring
of commercial speech over non-commercial speech, or
favoring of any particular non-commercial message
over any other non-commercial message. This
provision prevails over any more specific provision to
the contrary. This provision does not create a right
to increase the total amount of signage on a parcel
or allow the substitution of an off-site commercial
message in place of an on-site commercial message.

4a
Appendix A
Sec. 9.020 	Prohibited Signs and Sign Characteristics
The following are expressly prohibited under this
ordinance:
A. any sign or structure that constitutes a hazard
to public health or safety;
B. any signs attached to utility, traffic signal poles,
light poles, or standards except for governmental
signs;
C. signs, that by their color, location, or design
resemble or conflict with traffic control signs or
signals;
D. except for governmental signs erected by, or
on behalf of, the unit of government having
jurisdiction, no sign may be located on the public
right-of-way, or affixed to or upon public property.
This prohibition includes any sidewalk, parkway,
crosswalk, curb, curbstone, street lamppost,
hydrant, tree, shrub, tree stake or guard, electric
light or power, CATV, telephone or telegraph
system, fire alarm, lighting system, public bridge,
drinking fountain, trash receptacle, street sign
or traffic sign;
E. portable signs, except for sandwich board signs
that are allowed in the DB, DT and Fairview
concentrated business districts;

5a
Appendix A
F. vehicle signs when the vehicle is not licensed,
insured or operational;
G. advertising off-premise signs;
H. moving signs;
I.

LED and flashing signs;

J.

signs with bare bulb illumination, except for
marquees located in the DB, DT or Fairview
concentrated business districts;

K. attention-getting devices;
L. signs containing exposed gas tubing, exterior to
the building, including argon and neon;
M. roof signs;
N. box-type signs in the DB, DT or Fairview
concentrated business districts;
O. any sign that advertises, identifies, or pertains
to a business no longer conducted, or a product
no longer sold, on the premises where such sign
is located, within the previous 30 days;
P.

any sign painted directly on a wall, roof, or fence;

Q. any sign placed or attached to a telecommunications
tower, pole or antenna;

6a
Appendix A
R. signs containing manual changeable copy
consisting of more than 2 lines, except that
fueling stations, governmental agencies, schools
and religious assembly uses have up 4 lines of
manual changeable copy. The changeable copy
surface area is included in the total surface area
allowed;
S. signs containing electronic changeable copy/
message board;
T. single pole signs with a base of less than 2 feet in
width; and
U. any other sign not expressly permitted in this
article.
Sec. 9.030 	Signs Allowed without a Sign Permit
The following signs do not require a sign permit and are
subject to the following regulations:
A. Governmental signs, public signs and other
signs incidental to those signs for identification,
information or directional purposes erected or
required by governmental bodies, or authorized
for a public purpose by any law, statute or
ordinance.
B. Railroad crossing and signs of public utility
companies indicating danger or that serve as an
aid to public safety or that show the location of
underground facilities.

7a
Appendix A
C. Street address signs up to 4 square feet in area.
D. Decorations temporarily displayed in connection
with a village-sponsored or approved event or a
generally recognized or national holiday.
E. Temporary signs at a residence commemorating
a personal event, such as a birth, birthday,
anniversary or graduation.
F. “No trespassing” or similar signs regulating the
use of property, provided such signs are no more
than 2 square feet in area.
G. Noncommercial flags of any country, state or unit
of local government.
H. Real estate signs, provided that in residential
zoning districts, real estate signs may not exceed
5.5 square feet in area, including all attached
tags. In nonresidential zoning districts, real
estate signs may not exceed 36 square feet
in area. Real estate signs may be used solely
for advertising the sale, rental or lease of the
property where such sign is located. Real estate
signs may not exceed 10 feet in height. No more
than one real estate sign is allowed per lot where
such lot contains a single use, except on a corner
lot one real estate sign is allowed per street
frontage. When a lot contains multiple uses one
real estate sign is allowed per use. Real estate
signs may not be placed in the public right-of-way,

8a
Appendix A
except that “open house” signs may be placed in
the public right-of-way on Friday, Saturday and
Sunday of the weekend that the open house will
take place. Such open house signs may be posted
only between the hours of 5:00 a.m. Friday to
10:00 p.m. on Sunday, provided that:
1.

the open house sign may not exceed 4 square
feet in area;

2.

the open house sign must be freestanding,
not attached to any utility pole, traffic control
sign or other similar structured and must be
placed at least 3 feet from the curb or edge
of the pavement;

3.

only one open house sign is permitted within
1.50 feet of another sign that relates to the
same address. There may be only one open
house sign relating to the same address
placed in on a single lot;

4.

no attention-getting or attracting devices
may be attached to any open house sign;

5.

each open house sign must have attached to it
an adhesive label or other means to identify
the name, address and telephone number of
the person responsible for placement and
removal of the sign; and

9a
Appendix A
6.

a minimum fine of $75.00, per Section 1.16(f)
of the municipal code, will be levied on the
person whose name is on the sign if the
sign does not comply with the preceding
regulations. If no names are found on the
sign the fine will be levied on the owner of
the property identified on the sign.

I.

Political signs and noncommercial signs, provided
that total area of all such signs together may not
exceed a maximum area of 12 square feet per lot.
Political and noncommercial signs may not be
placed in the public right-of-way.

J.

Garage sale, rummage sale, yard sale and estate
sale signs, provided that such signs may be
placed in the public right-of-way only on Friday,
Saturday, Sunday and federal holidays that are
observed on Mondays of the weekend that the sale
will take place. Such sale signs may be posted
only between the hours of 5:00 a.m. Friday to
10:00 p.m. on Sunday, provided that:
1.

the sign may not exceed 4 square feet in area;

2.

the sign must be freestanding, not attached
to any utility pole, traffic control sign or
other similar structured and must be placed
at least 3 feet from the curb or edge of the
pavement;

10a
Appendix A
3.

only one sale sign is permitted within 150
feet of another sign that relates to the same
address. There may be only one sale sign
relating to the same address placed in on a
single lot;

4.

no attention-getting or attracting devices
may be attached to any sale sign;

5.

each sale sign must have attached to it an
adhesive label or other means to identify
the name, address and telephone number
of the person responsible for placement and
removal of the sign; and

6.

a minimum fine of $75.00, per Section 1.16
of the municipal code, will be levied on
the person whose name is on the sig if the
sign does not comply with the preceding
regulations. If no names are found on the
sign the fine will be levied on the owner of
the property identified on the sign.

K. Memorial signs and tablets, names of buildings
and date of erection when cut into masonry surface
or inlaid so as to be part of the building or when
constructed of bronze or other noncombustible
material.
L. “Help wanted” signs up to 2 square feet in
area. The “help wanted” sign text must be the
predominant text on the sign. Help wanted signs
may only be located on a window or door.

11a
Appendix A
M. Public notice signs are permitted on property
that is the subject of a public meeting or hearing.
Such signs may not exceed 9 square feet in area
or 6 feet in height.
N. Vehicle signs are allowed when the vehicle to
which the sign is attached is licensed, insured,
and operational. The vehicle must be used for
the operation of the business and may not remain
stationary for an extended period of time for the
purpose of attracting attention to a business.
O. Up to one contractor sign is allowed per lot.
Such sign may not exceed 6 square feet in area
and must be removed upon completion of related
work.
Sec. 9.040 	Temporary Signs
Temporary signs as identified in this article may be
permitted for promoting special community activities,
special events, grand openings for businesses, or the
activities of nonprofit organizations, subject to the
issuance of a sign permit and compliance with the
following regulations.
A. No more than 8 permits for temporary signs may
be issued in any calendar year for a single lot.
Permits may be valid for a maximum period of
7 days. Applications for temporary sign permits
must be approved by the village and must contain
at minimum a general description of the sign,
including size and lighting.

12a
Appendix A
B. All temporary signs must be properly maintained
while displayed and be able to withstand all
weather elements.
C. Temporary signs may not contain changeable
copy.
D. Temporary signs may not exceed 32 square feet
in area.
E. A maximum of one temporary sign may be
permitted for each street frontage on a lot.
F. All temporary signs must be removed by the
person or organization that erected or caused
the erection of the sign within 3 days of the end
of the event to which they relate, or at the end of
the maximum period for which the sign is allowed,
whichever date comes first.
G. Temporary window signs are exempt from sign
permit requirements. However, unless they are
promoting an upcoming event of a nonprofit
agency, such temporary window signs are subject
to the restrictions regarding allowable area for
window signs.
H. Temporary signs may not be located above the
first floor in the DB, DT and Fairview Avenue
Concentrated Business Districts.

13a
Appendix A
I.

The following additional regulations apply to all
(temporary) development signs.
1.

A sign permit must be obtained before the
erection of any development sign. A sign
permit may be issued in connection with the
following types of developments after the
village has issued a final approval for the
development.
a.

Residential developments of 3 or more
dwelling units.

b.

Commercial, industrial or institutional
developments consisting of at least
20,000 square feet of land area.

2.

Only one development sign per street
frontage is permitted.

3.

Development signs may not exceed 36 square
feet in area.

4.

Development signs must be removed at
such time a final certificate of occupancy is
issued. If more than one final certificate of
occupancy will be issued for the development,
the development signs must be removed
when at least 75% of the final certificates of
occupancy have been issued.

14a
Appendix A
5.

Development sig ns may d isplay only
information pertinent to the entity or entities
participating in the development project.

Sec. 9.050 	Sign Regulations Generally
The regulations of this section (Sec. 9.050) apply to signs
in all areas of the village except the DB and DT zoning
districts and the Fairview concentrated business district.
A. Maximum Total Sign Area
The maximum allowable sign area may not exceed
1.5 square feet per linear foot of tenant frontage,
plus any signs expressly excluded from maximum
sign area calculations. Buildings set back more
than 300 feet from the abutting street right-ofway are allowed a maximum allowable sign area
of 2 square feet per linear foot of tenant frontage,
plus any allowed excluding menu boards, window
and temporary signs. In no case, may a single
tenant exceed 300 square feet in total sign
surface area.
B. Monument Signs and Shingle Signs
Unless otherwise expressly stated, each lot is
allowed either one monument sign or one shingle
sign.
1.

Monument Signs

15a
Appendix A
a.

Monument sig ns a re limited to a
maximum of 2 sign faces and are subject
to the height and area limitations of
Table 9-1.

Table 9-1: Monument Sign Height
and Area Regulations
Lot Size
Monument Sign
Regulations

Less than
100 ft. Lot
Width

100-259
ft. Lot
Width

260 ft. or
Greater Lot
Width and
at Least 2.5
Acres in Area
(B-3 District
Only)

Maximum
Height (feet)

8

10

15

Maximum Area
(sq. ft.)

24

36

60

b.

Monument signs must be set back at
least 10 feet from all street rights-of-way
and at least 25 feet from all other lot
lines. Monument signs that are greater
than 10 feet in height and 36 square feet
in size must be set back at least 100 feet
from interior (non-street) lot lines.

c.

Monument signs are subject to the
intersection visibility regulations of Sec.
10.020.

16a
Appendix A
d.

Monument signs must display the
address number of the subject property
with numbers or characters between
8 and 10 inches in height. Address
numbers are excluded when calculating
the area of the monument sign.

e.

Lots with more than one street frontage
are allowed 2 monument signs, provided
the signs are located on different street
frontages and separated by a minimum
distance of 100 feet.

f.

The base of all monument signs must be
landscaped. Every permit application for
a monument sign must be accompanied
by a landscape plan demonstrating
compliance with the following standards:
(1) Signs must be surrounded by a
landscaped area of at least 3 feet in
width, measured outward from the
face of the sign.
(2) Landscaping within the required
landscape area must consist of
shrubs, evergreens, perennial or
annual flowers, ornamental grasses,
vegetative ground cover or some
combination of such live plants.
Sodded, seeded, mulched or rocked
areas may not be counted as meeting

17a
Appendix A
these monument sign landscaping
requirements.
(3) Monument sig n landscaping is
subject to the landscape maintenance
provisions of Sec. 8.0601.
2.

Multi-tenant Shopping Centers
a.

Multi-tenant shopping centers located
on lots with more than 500 feet of street
frontage are allowed 2 monument signs,
provided the signs are separated by
a minimum distance of 200 feet. Such
signs may not exceed 15 feet in height or
60 square feet in area and must contain
the names of more than one tenant.
A shopping center tenant’s panel sign
is not counted toward allowable sign
surface area.

b.

Multi-tenant shopping centers located
on lots with 100 to 500 feet of street
frontage are allowed a maximum of
one monument sign. The sign may not
exceed 10 feet in height or 36 square feet
in area and must contain the names of
more than one tenant. A shopping center
tenant’s panel sign is not counted toward
allowable sign surface area.

18a
Appendix A
c.

Multi-tenant shopping centers located on lots
with less than 100 feet of street frontage age
are allowed a maximum of one monument
sign. The sign may not exceed 8 feet in height
or 24 square feet in area and must contain the
names of more than one tenant. A shopping
center tenant’s panel sign is not counted
toward allowable sign surface area.

3. 	Tollway Corridor
Signs on lots abutting the right-of-way of I-88
or I-355 are subject to all regulations of this
article, with the following exceptions:
a.

In addition to the monument sign otherwise
allowed by Sec. 9.050B one additional
monument sign is allowed for lots with a
minimum frontage of 100 feet along the
tollway or on IDOT frontage along the
tollway.

b.

The additional monument sign must be
placed adjacent to the tollway and may not
exceed 225 square feet in area or 20 feet in
height. The additional monument sign will
not be counted in calculating the lots total
sign area.

c.

Monument signs must be separated by
a minimum distance of 30 feet from any
existing tollway signs.

19a
Appendix A
4. 	Shingle Signs
The maximum allowed sign area of a shingle
sign is 10 square feet per side. The maximum
allowed height is 7 feet. Shingle signs must
be set back at least 8 feet from interior lot
lines. No street setback applies.
C. 	Wall Signs
1.

Each business or property owner is allowed
to display one wall sign per tenant frontage
along a public roadway or drivable right-ofway.

2.

If the structural support of a wall sign is
visible it must be the same color as the
exterior building to which it is attached.

3.

Wall signs may not cover (wholly or partially)
any wall opening, and may not extend
beyond the perimeter of the wall to which
it is attached or extend more than 12 inches
from the vertical plane of the wall to which
it is attached.

4.

Buildings with a height of 4 stories or more
are allowed one wall sign on up to 3 sides of
the building, with a maximum area of 100
square feet per sign. Such wall signs are not
counted in calculating maximum allowable
sign area.

20a
Appendix A
In addition to all other signs allowed by
Section 9.050, lots with frontage along the
BNSF railroad right-of-way are allowed one
additional wall sign to be displayed on the
wall facing the BNSF railroad right-of-way.
Such sign shall not exceed 1.5 square feet
per lineal foot of tenant frontage along the
BNSF railroad right-of-way. The maximum
allowable sign area including all permitted
signs pursuant to Section 9.050 may not
exceed 300 square feet excluding any signs
expressly excluded from the maximum sign
area calculations.
D. Menu Boards
Menu boards for restaurants are allowed on the
exterior wall of the business. Such signs may not
exceed 4 square feet in area. The menu board
area is not counted in calculating maximum
allowable sign area. The menu board sign may
include menus or notice of special events including
community events. All menu board signs must be
enclosed in a tempered glass or Plexiglas frame.
E. 	Projecting Signs
1. 	First Floor
Each first floor establishment is allowed one
projecting sign. Such signs may not extend
more than 36 inches from the vertical plane

21a
Appendix A
of the façade to which it is attached and may
not exceed 6 square feet in area. First floor
projecting signs must be placed to allow at
least 8 feet of vertical clearance above the
ground directly beneath the sign. Projecting
signs may not be internally illuminated.
2. 	Second Floor
The second floor of any building is allowed
only one projecting sign, which must be
located immediately over or within 2 feet
of the first floor pedestrian access to the
building. Such signs may not extend more
than 36 inches from the vertical plane of the
façade to which it is attached and may not
exceed 6 square feet in area. The projecting
signs must be placed to allow at least 8 feet of
vertical clearance above the ground directly
beneath the sign. Projecting signs may not
be internally illuminated.
F. Awning Signs
Awning or canopy signs are allowed, subject to
the following requirements:
1.

Awnings and canopies may not extend
above the first floor of the building to which
it is attached and must be constructed and
erected so that the lowest portion of the
awning or canopy is at least 8 feet above the
ground directly beneath it.

22a
Appendix A
2.

Aw ning or canopy sig ns may include
only the name, address, and logo of the
business conducted within the building. No
advertising may be placed on any awning or
canopy sign. Lettering must be painted or
otherwise permanently affixed to the awning
or canopy.

G. Under-Canopy Signs
Under-canopy signs must be attached to the
underside of the soffit or ceiling of a canopy. The
face of any such sign may not exceed 12 inches
in height or 4 feet in length. Such signs must be
placed to allow at least 8 feet of vertical clearance
above the ground directly beneath the sign.
H. 	Window Signs
1.

First floor businesses are allowed permanent
and temporary window signs covering
a maximum of 25% of each window. The
window sign area is in addition to the total
maximum allowable sign area.

2.

Businesses located above the first floor
are allowed permanent window signs of
individual letters or etching, covering up to
25% of one window per floor per tenant.

23a
Appendix A
Sec. 9.060 	Sign Regulations for Downtown and the
		Fairview Concentrated Business District
The regulations of this section (Sec. 9.060) apply in the DB
and DT zoning districts and the Fairview concentrated
business district.
A. Maximum Total Sign Area
The maximum allowable sign area may not exceed
one square feet per linear foot of tenant frontage
or 300 square feet, whichever is less, plus any
signs expressly excluded from maximum sign
area calculations.
B. Box Signs Prohibited
Box-type signs are prohibited.
C. Monument, Shingle and Freestanding Signs
Unless otherwise expressly stated, each lot is
allowed either one monument sign, one shingle
sign or one freestanding sign, subject to the
following regulations.
1.

Monument Sign
Monument signs may not exceed 20 square
feet in area per side or a height of 7 feet.
Monument signs must be set back at least
8 feet from all interior lot lines. No street

24a
Appendix A
setback applies. Monument signs must
display the address number of the subject
property w ith numbers or characters
between 8 and 10 inches in height. Address
numbers are excluded when calculating the
area of the monument sign.
2. 	Shingle Sign
Shingle signs may not exceed 10 square feet
in area per side or a height of 7 feet. Shingle
signs must be set back at least 8 feet from all
interior lot lines. No street setback applies.
3. 	Freestanding Sign
Freestanding signs may not exceed 20
square feet in area per side or a height of 7
feet. Freestanding signs must be set back
at least 8 feet from all interior lot lines. No
street setback applies.
D. 	Landscaping
The base of all freestanding and monument signs
must be landscaped. Every permit application
for a monument sign must be accompanied by a
landscape plan demonstrating compliance with
the following standards:
1.

Signs must be surrounded by a landscaped
area of at least 3 feet in width, measured
outward from the face of the sign.

25a
Appendix A
2.

Landscaping within the required landscape
area must consist of shrubs, evergreens,
perennial or annual flowers, ornamental
grasses, vegetative ground cover or some
combination of such live plants. Sodded,
seeded, mulched or rocked areas may not
be counted as meeting these landscaping
requirements.

3.

Freest a nd i ng a nd monu ment sig n
landscaping is subject to the landscape
maintenance provisions of Sec. 8.0601.

E. 	Wall Signs
1.

Each business or property owner is allowed
to display one wall sign per tenant frontage
along a public roadway or drivable right-ofway.

2.

If the structural support of a wall sign is
visible it must be the same color as the
exterior building to which it is attached.

3.

Wall signs may not cover (wholly or partially)
any wall opening, and may not extend
beyond the perimeter of the wall to which
it is attached or extend more than 12 inches
from the vertical plane of the wall to which
it is attached.

26a
Appendix A
4.

In addition to all other signs allowed by
Section 9.060, lots with frontage along the
BNSF railroad right-of-way are allowed one
additional wall sign to be displayed on the
wall facing the BNSF railroad right-of-way.
Such sign shall not exceed 1.0 square foot
per lineal foot of tenant frontage along the
BNSF railroad right-of-way. The maximum
allowable sign area including all permitted
signs pursuant to Section 9.060 may not
exceed 300 square feet excluding any signs
expressly excluded from the maximum sign
area calculations.

F. Menu Boards
Menu boards for restaurants are allowed on the
exterior wall of the business. Such signs may not
exceed 4 square feet in area. The menu board
area is not counted in calculating maximum
allowable sign area. The menu board sign may
include menus or notice of special events including
community events. All menu board signs must be
enclosed in a tempered glass or Plexiglas frame.
G. 	Projecting Signs
1. 	First Floor
Each first floor establishment is allowed one
projecting sign. Such signs may not extend
more than 36 inches from the vertical plane

27a
Appendix A
of the façade to which it is attached and may
not exceed 6 square feet in area. First floor
projecting signs must be placed to allow at
least 8 feet of vertical clearance above the
ground directly beneath the sign. Projecting
signs may not be internally illuminated.
2. 	Second Floor
The second floor of any building is allowed
only one projecting sign, which must be
located immediately over or within 2 feet
of the first floor pedestrian access to the
building. Such signs may not extend more
than 36 inches from the vertical plane of
the façade to which it is attached and may
not exceed 6 square feet in area. First floor
projecting signs must be placed to allow at
least 8 feet of vertical clearance above the
ground directly beneath the sign. Projecting
signs may not be internally illuminated.
H. Awning Signs
Awning or canopy signs are allowed, subject to
the following requirements:
1.

Awnings and canopies may not extend
above the first floor of the building to which
it is attached and must be constructed and
erected so that the lowest portion of the
awning or canopy is at least 8 feet above the
ground directly beneath it.

28a
Appendix A
2.

I.

Aw ning or canopy sig ns may include
only the name, address, and logo of the
business conducted within the building. No
advertising may be placed on any awning or
canopy sign. Lettering must be painted or
otherwise permanently affixed to the awning
or canopy.

Under-Canopy Signs
Under-canopy signs must be attached to the
underside of the soffit or ceiling of a canopy. The
face of any such sign may not exceed 12 inches
in height or 4 feet in length. Such signs must be
placed to allow at least 8 feet of vertical clearance
above the ground directly beneath the sign.

J. 	Window Signs
1.

First floor businesses are allowed permanent
and temporary window signs covering
a maximum of 25% of each window. The
window sign area is in addition to the total
maximum allowable sign area.

2.

Businesses located above the first floor
are allowed permanent window signs of
individual letters or etching, covering up
to 25% of one window per floor per tenant.
Window signs above the first floor may not be
illuminated by means of exposed gas tubing
including, but not limited to, argon, neon or
neon-like substances.

29a
Appendix A
K. Heritage Signs
Signs in place in the DB or DT zoning districts
or Fairview concentrated business district
before January 1, 1965 are hereby deemed to
be “heritage signs” and are allowed to remain
in place and be maintained in any manner to
allow for continued use. In order to be deemed
a “heritage sign,” the owner of the sign must
provide conclusive evidence to the community
development director that the sign was in place
before January 1, 1965.
L. 	Sandwich Board Signs
First floor businesses are allowed up to one
sandwich board sign, not to exceed 6 square feet
in area. They are not counted in calculating the
maximum sign area allowed on a lot. Sandwich
board signs are allowed within the public rightof-way, provided the following requirements are
met:
1.

A license agreement must entered into in
a form and amount approved by the village
indemnify ing and holding the v illage
harmless from liability and naming the
village, its officers and employees as an
additional insured on a general liability
insurance policy. Such license agreements
require the approval and signature of the
village manager.

30a
Appendix A
2.

Sandwich board signs may be displayed only
during business hours and must be removed
each day at the end of business.

3.

Sandwich board signs may not be placed
in any location where the paved area for
passage is reduced to less than 6 feet or
within 15 feet of any intersection, driveway
or crosswalk.

4.

Sandwich board signs must be constructed
of wood, metal or durable plastic.

5.

The minimum fine for a violation of these
sandwich board sign regulations is $750.
Each day that such violation continues
constitutes a separate fineable offense.

Sec. 9.070 	Special Sign Types
A. 	Ornamental Entry Gate Signs
Ornamental entry gate signs are allowed at
the entry to a development along an arterial
or collector street, subject to the following
regulations:
1.

The maximum area of any ornamental entry
gate sign in a residential zoning district is
25 square feet, and the maximum height is
8 feet.

31a
Appendix A
2.

The maximum area of any ornamental entry
gate sign in a manufacturing zoning district
is so square feet, and the maximum height is
10 feet.

3.

In residential zoning districts, the sign may
display only the name of the subdivision or
development.

4.

In manufacturing zoning districts, the sign
may display only a directory for an industrial
subdivision or an industrial park.

5.

One ornamental entry gate sign may be
located on each side of the point of ingress
to the development, but not in the public
right-of-way or other w ise upon public
property. Any ornamental entry gate sign
on public property before August 1, :2006
may remain in place, subject to approval of
a fully executed license agreement with the
village.

B. Home Occupation Signs
Permitted home occupations are allowed one sign
per lot, subject the following regulations.
1.

The sign must be flat-mounted against the
principal building.

32a
Appendix A
2.

The sign may not exceed 2 square feet in
area.

3.

The sign may display only the name, address,
phone number and occupation.

4.

The sign may not be directly or indirectly
illuminated, other than by those lights
incidental to the residential use of the
premises.

C. 	Signs Accessory to Parking Areas
Signs directing and guiding vehicular ingress
and egress to public or private off-street parking
areas may not exceed 2 square feet in sign area.
No more than 2 such signs are allowed at each
point of ingress/egress from the parking area.
One sign with a maximum sign area of 4 square
feet may be maintained on each street side of a
parking area for the purpose of designating the
conditions of use or identity of the parking area.
Signs accessory to parking areas are not included
in calculating the total sign area on a lot. Signs
accessory to parking areas must be set back at
least 3 feet from the public right-of-way.
D.	Institutional Signs
Exterior identification signs up to 20 square
feet in area and a maximum height of 6 feet
are allowed on the site of a public, charitable

33a
Appendix A
or religious assembly use. No more than one
such sign is allowed per lot. Changeable copy
consisting of a maximum of 4 lines is allowed. The
changeable copy area is included in calculating
the total sign area on a lot.
E. 	College and University Signage
Any educational campus with an area of 40 acres
or more is subject to the regulations of this
section. Entry monument signs are allowed at the
perimeter of the campus on private property. The
monument sign may not exceed 6 feet in height or
so square feet in area, including ornamentation.
Entry monument signs must be set back at least
40 feet from all curb lines. Exterior building
identification may consist of no more than one
monument sign on each side of the primary
building entrance.
Sec. 9.080

Administration and Permits

Except as otherwise expressly stated, all signs require
a permit.
A. Application
Any person or activity proposing to erect or
display a sign must file an application on a form
provided by the village, which must include a plat
of survey.

34a
Appendix A
B. 	Fees
All applicable permit fees as established in the
User-Fee, License & Fine Schedule must be paid
in full.
C. 	Conformance with the National Electrical
Code
All signs in which electrical wiring and connections
are required for direct or indirect illumination
must comply with all applicable provisions of the
National Electrical Code.
D. 	Wind Pressure and Dead Load Requirements
Signs must be designed and constructed to
withstand a wind pressure of at least 40 pounds
per square foot of net surface area and to receive
dead loads as required in the building code.
E. 	Insurance and Bond Requirements
Every applicant for a sign that will extend over
a public right-of-way or that is so located that it
may fall upon the public right-of-way, must file
with the community development director an
encroachment license agreement indemnifying
the village and holding the village harmless from
any liability. The applicant must also provide a
liability insurance policy covering all damage
or injury that might be caused by such signs, or
certificate of insurance therefore, issued by an

35a
Appendix A
insurance company authorized to do business
in the state of Illinois and satisfactory to the
community development director, with limits of
liability of not less than $1,000,000 for property
damage and $1,000,000 for personal injuries. The
village, its officers, agents and employees must
be named as additional insured. Such liability
insurance policy must be maintained in force
throughout the life of the permit, and if at any
time it is not in full force, the permit must be
revoked.
F. 	Completion of Authorized Work
If the work authorized under a sign permit has
not been completed within 6 months of the date
of issuance, the permit becomes null and void.
Sec. 9.090 	Nonconforming Signs
Any sign that existed lawfully on the effective date
of the sign regulations of this article that remains or
becomes nonconforming by reason of adoption of these
sign regulations or because of subsequent amendments
to these sign regulations, or that become nonconforming
by reason of annexation to the village of the lot on which
the sign is located, are considered nonconforming signs
and their continuance is allowed in accordance with the
following regulations:
A. Ordinary repairs and maintenance, including
the removing and replacing of the outer panels is

36a
Appendix A
permitted, provided that the panels are replaced
with identical panels and that no structural
alterations or other work that extends the normal
life of the nonconforming sign is permitted.
B. Single panels on multi-panel monument signs for
multi-tenant shopping centers may be changed
to reflect tenant changes.
C. No repair or alteration that increases the size of
the nonconforming sign is permitted.
D. No nonconforming sign may be moved in whole
or in part to any other location on the same or
any other premises unless every portion of such
sign is made to conform to all of the regulations
of these sign regulations.
E. If a nonconforming sign is located on property
that is sold, with the full ownership of the
property being transferred, the nonconforming
sign must be brought into conformance with the
sign regulations of this article at the time of the
transfer unless the business will continue to
operate under the same name.
F. If a nonconforming sign is abandoned or the
described business discontinued for a continuous
period of 30 days or more, it must be discontinued
and any subsequent sign must conform to all of
the sign regulations of this article.

37a
Appendix A
G. On or prior to May 5, 2014 all nonconforming
signs must be brought into conformance with the
sign regulations of this article. This period is for
all purposes deemed an appropriate amortization
period for each and every nonconforming sign
presently located within the corporate limits
of the village or hereinafter located within the
village by reason of annexation into the village of
the lot or parcel on which the sign is located. Such
amortization period shall be non-compensated.
H. Paragraph G does not apply to signs previously
granted variances by the zoning board of appeals.
Such signs are deemed nonconforming signs to
which all other provisions of this section apply.
Sec. 9.100 	Illumination
Except as otherwise expressly stated, internally or
externally illuminated signs are allowed, provided they
comply with the following requirements:
A. Signs may be illuminated only by steady,
stationary light sources directed solely at the
sign or internal to it so that the light intensity or
brightness does not create a nuisance to adjacent
property or a traffic hazard.
B. Individual letters or logos may be internally
illuminated. All other portions of the sign must
be opaque.

38a
Appendix A
C. Signs may not be illuminated by exposed
reflective type bulbs, exterior exposed neon,
fluorescent, incandescent or strobe lights.
Sec. 9.110

Maintenance

All signs must be properly maintained, which includes
repair or replacement of all broken or missing parts,
elimination of rust or oxidation, elimination of faded or
chipped paint, and correcting all similar conditions of
disrepair. If a sign is illuminated, the source of such
illumination must be kept in a state of safe working
order at all times. Failure to properly maintain any sign
constitutes a violation of this zoning ordinance.
Sec. 9.120 Enforcement
The community development director is hereby authorized
and directed to enforce all of the provisions of this article.
Upon presentation of proper credentials, village personnel
may enter, at reasonable times, any building, structure or
premises to perform any duty imposed under this article.
A. 	Notice of Violation
Unless otherwise provided in this article, if
the community development director finds that
any sign has been erected in violation of the
provisions of this article, or is unsafe or insecure,
the community development director may issue a
citation and/or cause the sign to be removed by
the village upon 10 days written notice. However,

39a
Appendix A
the community development director may cause
any sign that poses an immediate threat of harm
to persons or property to be removed summarily
and without notice. The cost of such removal will
be collected from the owner and/or occupant of
the property by an action at law or assessed as a
lien against the subject property after notice to
the property owner.
B. 	Signs Allowed without a Sign Permit and
Temporary Signs
If the community development director finds
that any sign or signs pursuant to Sections 9.030
and 9.040 have been erected in violation of the
provisions of this article, or is unsafe or insecure,
written notice must be provided to the owner
and/or occupant of the property on which the
sign is located or to the person or organization
whose message is on the sign. If the sign is not
removed or altered to comply with the provisions
of this article within 24 hours of such notice, the
community development director may issue a
citation and/or cause such sign to be removed by
the village without further notice. The owner and
occupant of the property are jointly responsible
for the cost of such removal, which may be
recovered by the village in an action at law or by
filing a lien against the property after notice to
the property owner.

40a
Appendix A
C. 	Sec. 9.130 Severability
I f a ny p or t ion of t h i s A r t icle 9 or a ny
regulation contained herein is held to be invalid
or unconstitutional by a court of competent
jurisdiction, it is the Village’s specific legislative
intent that said portion or regulation is to be
deemed severed from this Article 9 and should
in no way affect or diminish the validity of
the remainder of Article 9 or any other sign
regulation set forth herein.

41a
Appendix
B
Appendix b —
Ordinance
No. 5472,
An Ordinance Amending Certain
Provisions of the Downers Grove
Zoning Ordinance Regarding Signs
ORDINANCE NO. 5472
AN ORDINANCE AMENDING CERTAIN
PROVISIONS OF THE DOWNERS GROVE
ZONING ORDINANCE REGARDING SIGNS
WHEREAS, the Village Council finds:
1)

Signs painted directly onto a wall, fence, or roof create
a greater upkeep and maintenance problem than
signs separately manufactured and hung or affixed
to a wall, fence or roof, and such signs face increased
fading, chipping, deterioration, loss of visibility, brick
fracture, and other visual deterioration.

2)

Signs painted directly onto a wall, fence, or roof
present far more demanding and difficult methodology
for removal than signs separately hung or affixed to
a wall, fence, or roof, and whether by sand blasting,
chemical removal, paint over or other method of
obliteration, the after effects of removal of such signs
painted directly onto a wall, fence, or roof often leave
residual ghost signs, discolored building surfaces or
other undesirable visual blight detrimental to the
appearance of the Village.

3)

Permitting signs painted directly onto a wall, fence, or
roof would allow hand painted spray paint messages
to lawfully exist on walls, fences, and roofs, which

42a
Appendix B
would cripple the enforcement ability of the Village to
eradicate graffiti, and would legalize the very visual
blight that the Village has been fighting for the past
decade to eradicate.
4)

Through enforcement efforts and the imposition of
a decade long amortization schedule, nearly 100% of
signs painted directly onto a wall, fence, or roof have
been eradicated, and broadening the prohibition of
signs painted directly onto a wall, fence, or roof to
include the DB, DT, and Fairview business district
will create a uniform rule to protect against the
visual detriments of such signs, while leaving ample
opportunities to post a multitude of code compliant
signs throughout the Village.

WHEREAS, the Village Council further finds:
1)

The Village sign regulations currently permit multiple
signs facing the BNSF rail corridor, but wall signs
are required to be posted so as to face a driveable
right of way or public roadway so as to assure that
the wayfinding safety function of wall signs can be
fulfilled by making such signs visible to motorists
attempting to locate their destination.

2)

While monument signs, projection signs, window
signs, and other signs are currently permitted facing
the BNSF rail corridor, wall signs are not permitted
by the current sign regulations.

43a
Appendix B
3)

Many properties along the BNSF corridor have
structures which were built at a time when rear yard
set back requirements of the Village Code permitted
the structures to be at or near the BNSF property
line, thus leaving inadequate rear yard for posting
signs which are compliant with the current code
provisions.

4)

By permitting wall signs which face the BNSF, the
Village will be providing broader opportunities for
signage to those properties with frontage on the
rail corridor, while maintaining consistency with the
established policy of the Village to permit a broad
variety of signage along the rail corridor.

5) By recognizing the additional frontage of the BNSF
for purposes of allowing additional wall signs, the
amendment will nevertheless maintain the driveable
right of way and public road frontage as permitting wall
signs facing such frontages and thus the amendment
will not detract from the regulations which encourage
the traffic safety function of wayfinding signs visible
to drivers along those roadways.
6)

By maintaining the gross signage limit of 300 SF per
property as well as the limit on the number of signs
per tenant frontage, the amendment will still prohibit
the unconstrained proliferation of signage and the
accompanying visual blight, and the amendment will
still require competitive balance by prohibiting one
property owner from over signing their property
to the detriment of neighboring property values or
neighboring business interests.

44a
Appendix B
NOW, THEREFORE, BE IT ORDAINED by the
Village Council of the Village of Downers Grove in DuPage
County, Illinois, as follows: (Additions are indicated by
redline/underline; deletions by strikeout):
Section 1. That Section 28.9.020 is hereby amended as
follows:
9.020 Prohibited Signs and Sign Characteristics
***
P. any sign painted directly on a wall, roof, or fence,
except in the DB, DT or Fairview Concentrated
Business District;
Section 2. That Section 28.9.050.C is hereby amended
as follows:
9.050.C. Sign Regulations Generally – Wall Signs
***
5.

In addition to all other signs allowed by Section
9.050, lots w ith frontage along the BNSF
railroad right-of-way are allowed one additional
wall sign to be displayed on the wall facing the
BNSF railroad right-of-way. Such sign shall not
exceed 1.5 square feet per lineal foot of tenant
frontage along the BNSF railroad right-of-way.
The maximum allowable sign area including all
permitted signs pursuant to Section 9.050 may

45a
Appendix B
not exceed 300 square feet excluding any signs
expressly excluded from the maximum sign area
calculations.
Section 3. That Section 28.9.060.E is hereby amended
as follows:
9.060.E. Sign Regulations for Downtown and the Fairview
Concentrated Business District – Wall Signs
***
4.

In addition to all other signs allowed by Section
9.060, lots w ith frontage along the BNSF
railroad right-of-way are allowed one additional
wall sign to be displayed on the wall facing the
BNSF railroad right-of-way. Such sign shall not
exceed 1.0 square foot per lineal foot of tenant
frontage along the BNSF railroad right-of-way.
The maximum allowable sign area including all
permitted signs pursuant to Section 9.060 may
not exceed 300 square feet excluding any signs
expressly excluded from the maximum sign area
calculations.

Section 4. That Section 28.15.230. is hereby amended
as follows:
15.230 Definitions – Words and Terms Beginning with “T”
***

46a
Appendix B
Tenant Frontage
The width of a tenant space measured from one side
wall to the other along the front exterior wall or other
drivable accessible routes or the BNSF railroad
right-of-way for purposes of Sections 9.050.C.5 or
9.060.E.4.
Section 5. That all ordinances or parts of ordinances
in conflict with the provisions of this ordinance are
hereby repealed.
Section 6. That this ordinance shall be in full force and
effect from and after its passage and publication in
the manner provided by law.
/s/				
Mayor
Passed: July 21, 2015
Published: July 22, 2015
Attest: /s/			
Village Clerk

47a
C
Appendix c —Appendix
Ordinance
No. 5478, An
Ordinance Amending Adopting a Text
Amendment to Article 9 of Downers
Grove Zoning Ordinance
ORDINANCE NO. 5478
AN ORDINANCE AMENDING ADOPTING A TEXT
AMENDMENT TO ARTICLE 9 OF DOWNERS
GROVE ZONING ORDINANCE
WHEREAS, the Village sign ordinance separates
commercial sign regulations from non-commercial sign
regulations because based upon U.S. Supreme Court
precedent, non-commercial speech, including noncommercial signage, is afforded greater constitutional
protection than commercial speech under the First
Amendment to the U.S. Constitution; and
WHEREAS, while commercial signs are relatively
uniform in purpose and function, non-commercial signs
are fundamentally non-uniform and serve an almost
unlimited variety of purposes and functions; and
WHEREAS, the Village sign ordinance was adopted
to fulfill expressly stated goals, which include, but are
not limited to, traffic safety, aesthetics, preservation of
property values and maintenance of competitive balance
between property owners and businesses within the
Village; and
WHEREAS, all regulations within the sign ordinance
are subject to judicial review for compliance with the
First Amendment, and the Village accepts its obligation

48a
Appendix C
to create narrowly tailored regulations, and accepts that
the Village must be prepared to prove that each sign
regulation it adopts successfully serves one or more of
the stated purposes for which the Village has elected to
regulate signs; and
WHEREAS, because non-commercial signs are so
diverse and serve such a broad variety of purposes and
functions, the Village’s non-commercial sign regulations
limit the size, number, location and physical aspects of
non-commercial signs based upon the purpose of the
category of non-commercial sign and/or the function of the
non-commercial sign being regulated. In this way, the size,
number, location and other physical aspects of the noncommercial signs can be narrowly tailored to serve one
or more of the Village’s stated purposes, predicated upon
the function or purpose of the non-commercial sign; and
WHEREAS, based upon the prior precedential
decisions of the Seventh Circuit Court of Appeals which
has jurisdiction over the Village, the non-commercial sign
regulations, as currently adopted and in effect, met the
content neutrality definition under the First Amendment;
and
WHEREAS, on June 18, 2015 the U.S. Supreme Court
issued a fractured decision in the case of Reed v. Town
of Gilbert, Ariz., 135 S.Ct. 2218 (2015), which addressed
the constitutionality of a municipal sign ordinance which
regulated non-commercial signs based upon the different
function or purpose of the non-commercial signs, and
found that those non-commercial sign regulations were
content-based and violated the First Amendment; and

49a
Appendix C
WHEREAS, the Reed decision recently caused
the Seventh Circuit Court of Appeals to reverse its
interpretation of content neutrality for purposes of
regulating non-commercial signs; and
WHEREAS, as a result, the Village now confronts
a legislative dilemma. If the Village must be prepared
to prove that its non-commercial sign regulations are
narrowly tailored and actually serve one of the stated
Village purposes justifying the regulation of noncommercial signs, then the function and purpose of the
category of non-commercial sign being regulated must be
taken into consideration. If, however, the non-commercial
regulations are legislatively established based upon the
function and the purpose of the various categories of
non-commercial signs, after the Reed decision, the noncommercial regulations now run the risk of being declared
to be content-based and unconstitutional; and
WHEREAS, the substitution clause adopted by this
Ordinance under Section 9.010.E is expressly intended
to allow the existing categories of non-commercial sign
regulations to be maintained because they have been
historically legislated with an intention of allowing the
purpose and function of the non-commercial sign to impact
the regulations. In light of the Reed decision, however,
the substitution clause will also now permit the owner of
a lawful sign to substitute non-commercial sign copy in
lieu of any other commercial or non-commercial sign copy,
because the federal courts have broadly and consistently
held that such substitution clauses render municipal sign
regulations to be content-neutral; and

50a
Appendix C
WHEREAS, the severance clause adopted by this
Ordinance under Section 9.130 is expressly intended
to articulate the Village Council’s specific legislative
determination and intent that individual regulation within
the sign ordinance stand separate and distinct from
one another, such that should one portion or regulation
within the sign ordinance be declared to violate the U.S.
Constitution, the remainder of the sign ordinance and
regulations should be severed and remain valid and in
full force and effect.
NOW, THERFORE, BE IT ORDAINED by the
Village Council of the Village of Downers Grove in DuPage
County, Illinois, as follows: (Additions are indicated by
redline/underline; deletions by strikeout):
Section l. That Section 28.9.010E is hereby added as
follows:
Sec. 9.010.E No Discrimination Against NonCommercial Signs Or Speech.
The owner of any sign which is otherwise allowed under
this Article 9 may substitute non-commercial copy in lieu
of any other commercial or non-commercial copy. This
substitution of copy may be made without any additional
approval or permitting. The purpose of this provision is
to prevent any inadvertent favoring of commercial speech
over non-commercial speech, or favoring of any particular
non-commercial message over any other non-commercial
message. This provision prevails over any more specific
provision to the contrary. This provision does not create

51a
Appendix C
a right to increase the total amount of signage on a parcel
or allow the substitution of an off-site commercial message
in place of an on-site commercial message.
Section 2. That Section 28.9.130 is hereby added as
follows:
Sec. 9.130 Severability.
If any portion of this Article 9 or any regulation contained
herein is held to be invalid or unconstitutional by a court
of competent jurisdiction, it is the Village’s specific
legislative intent that said portion or regulation is to be
deemed severed from this Article 9 and should in no way
affect or diminish the validity of the remainder of Article
9 or any other sign regulation set forth herein.
Section 3. That all ordinances or parts of ordinances in
conflict with the provisions of this ordinance are hereby
repealed.
Section 4. That this ordinance shall be in full force and
effect from and after its passage and publication in the
manner provided by law.
/s/				
		Mayor
Passed:
September 8, 2015
Published: September 9, 2015
Attest: /s/				
		
Village Clerk

